E-Mail Address:

2311 Douglas Street
Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19JAVIER SANCHEZ, GREGORY CASORSO,
and MICHAEL MARR,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
Dennis P. Riordan
Ted Sampsell-Jones
Donald Horgan
RIORDAN & HORGAN
1611 Telegraph Ave.
Suite 806
Oakland, CA 94612
(415)431-3475

Jeffrey L. Fisher
Counsel of Record
O'MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2633
jlfisher@omm.com

Subscribed and sworn to before me this 30th day of August, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38538

Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

